        National Science Foundation   •   4201 Wilson Boulevard       •   Arlington, Virginia 22230 

                                      Office of Inspector General 




MEMORANDUM

DATE:          JUL 2 - 2014
TO:          Mary F. Santonastasso, Director
             Division of Institution and Award Support




FROM:


SUBJECT: NSF OIG Audit Report No. OIG-14-1-003
         Independent Audit ofSouthwest Research Institute 's (SwRI) Cash Management and
         American Recovery and Reinvestment Act (ARRA) Compliance on NSF Grants


This memo transmits the Defense Contract Audit Agency (DCAA) report regarding an audit of
Southwest Research Institute's (SwRI) Cash Management and American Recovery and
Reinvestment Act (ARRA) Compliance on NSF Grants. Audit objectives were to: (1) determine
the cause of a reported $1 million premature draw down of NSF funds and any cost impact to
NSF; (2) determine whether SwRI was properly accounting and reporting for six NSF ARRA
(American Recovery and Reinvestment Act) awards in accordance with Office of Management
and Budget (OMB) requirements; and (3) with respect to the accounting and reporting of ARRA
funds on NSF awards during the FY 2009 and FY 2010 timeframe, assess the adequacy of
SwRI's accounting system to: properly account for, segregate and report the use of ARRA
funds; identify and segregate direct from indirect costs; and segregate unallowable costs.

Results of Audit

As for the reported $1 million premature drawdown, the audit confirmed that SwRI had made a
reporting error to NSF in its 3/31/2010 Federal Financial Report (FFR), but this error was
corrected in SwRI's 6/30/2010 FFR. The error did not result in an overbilling to NSF, i.e., SwRI
did not draw down against the overstated expenditure amounts reported in its 3/31/2010 FFR.
Thus, there was no cost impact to NSF.


                                                   1

DCAA found that the reported discrepancy was not an accounting error that affected SwRI's
books and records, but was rather a human input error in the amounts manually reported.
During the FY 2009 and FY 2010 timeframe, DCAA determined that SwRI followed established
procedures regarding requesting and disbursement of funds, and confumed that no advanced
cash drawdowns occurred or interest was earned on subj ect NSF grants. Thus, the audit disclosed
no reportable compliance issues relating to SwRI's cash management practices on NSF grants.

The audit also found six ARRA reporting errors in SwRI's early quarterly ARRA reports (from
12/31/2009 through 9/30/2010) due to human error caused by lack of established and complete
policies and procedures for completing ARRA reports. However, DCAA's review of selected
subsequent ARRA reports found no error issues; also, DCAA noted that SwRI subsequently
established ARRA reporting policies and procedures designed to prevent/reduce errors and
increase accuracy (such as cross-checking for errors). Therefore, DCAA opined that the errors in
the earlier ARRA reports were not of sufficient materiality to warrant a reportable control
deficiency. At our request, DCAA provided additional detail regarding the ARRA reporting
errors in a separate memorandum which we are providing to NSF (attached).

As for the adequacy of SwRI's accounting system for the ARRA awards, the audit found no
reportable deficiencies during the FY 2009-FY 2010 timeframe. Within its audit scope and
based on a judgmental sample                             out of a universe of• ) , DCAA
found that SwRI properly excluded unallowable costs from invoices submitted to NSF, and that
SwRI's indirect rates claimed on NSF grants were accurately computed and properly applied.
Additionally, the audit determined that SwRI complied with the cost sharing requirements
applicable to the six ARRA grants.

Attached are DCAA's audit report and its memorandum detailing the ARRA reporting errors.


OIG Oversight of Audit

To fulfill our responsibilities to ensure that DCAA complied with generally accepted government
auditing standards (GAGAS), with the exception that DCAA does not have an external opinion
on its quality control system as required by GAGAS, the Office of Inspector General:

    • 	 Reviewed DCAA's approach and planning of the audit;
    • 	 Monitored the progress of the audit at key points;
    • 	 Coordinated periodic meetings with DCAA and NSF officials as necessary, to discuss
        audit progress, findings and recommendations;
    • 	 Reviewed the audit report prepared by DCAA; and
    • 	 Coordinated issuance of the audit report.

DCAA is responsible for the attached audit report and memorandum, and the conclusions
expressed therein.




                                               2

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact David Willems at (703) 292-4979 or Jannifer Jenkins
at (703) 292-4996.


Attachments:

DCAA Audit Report No. 3311-2012W17900001, Independent Audit of Southwest Research
Institute 's (SwRI) Cash Management and American Recovery and Reinvestment Act (ARRA)
Compliance on National Science Foundation (NSF) Grants, dated November 12, 2013

DCAA Memorandum 03311 820.5 2012Wl 790001, Response to Additional Questions submitted
by National Science Foundation Office of Inspector General (NSF-OIG) regarding Audit No.
3311-2012Wl7900001, dated November 12, 2013, at Southwest Research Institute (SwRI),
dated March 20, 2014


cc: 	 Alex Wynnyk, Branch Chief, CAAR
      Michael Van Woert, Executive Officer, NSB
      Ann Bushmiller, Senior Legal Counsel, NSB




                                                  3

Defense Contract Audit Agency 


                                United States 

                            Department of Defense 


                                 November 12, 2013

 Independent Audit of Southwest Research Institute's (SwRI)
 Cash Management and American Recovery and Reinvestment
  Act (ARRA) Compliance on National Science Foundation
                       (NSF) Grants

                AUDIT REPORT NO. 3311-2012W17900001

RESTRlCTIONS:

1. 	 The contents of this audit report should not be released or disclosed, other than to those
     persons whose official duties require access in accordance with DoD 5200.1 -R, Information
     Security, January 1997, Appendix 3, paragraph AP3.2.3 . This document may contain
     information exempt from mandatory disclosure under the Freedom of Information Act.
     Exemption 4, of the Freedom of Information Act, which addresses proprietary information,
     may apply.

   It is not practical to identify during the conduct of the audit those elements of the data which
   are proprietary. Proprietary determinations should be made in the event of an external
   request for access. Unauthorized disclosure of proprietary information violates 18 U .S.C.
   1905 and, if the information is contractor bid or proposal or source selection information,
   4 1 U.S .C. 2102. Any person who unlawfully discloses such information is subject to
   penalties such as fines, imprisonment, and/or removal from office or employment.
Audit Report No. 33 11-2012W17900001


2. 	 Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), the Defense
     Contract Audit Agency will refer any Freedom of Information Act requests for audit reports
     received to the cognizant contracting agency for determination as to releasability and a direct
     response to the requestor.

3. 	 The Defense Contract Audit Agency has no objection to the release of this report, at the
     discretion of the contracting agency, to authorized representatives of SwRl.

4. 	 Do not use the information contained in this audit report for purposes other than action on the ·
     subject of this audit without first discussing its applicability with the aupitor.
Audit Report No. 3311-2012Wl7900001

           DEFENSE CONTRACT AUDIT AGENCY
PREPARED FOR: Associate Inspector General for Audit
                   Office of Inspector General (OJG)
                   National Science Foundation (NSF)
                   ATfN: Mr. David Willems, Audit Manager
                   4201 Wilson Boulevard
                   Arlington, Virginia 22230

PREPARED BY:       DCAA San Antonio Branch Office
                   Southwest Research Institute Suboffice
                   6220 Culebra Road, Trailer Number 51
                   San Antonio, Texas 78238-5166
                       Telephone No.      (210) 522-2248
                       FAX No.            (210) 522-6895
                       E-mail Address: dcaa-fao33 l l @dcaa.mil

REFERENCES:        NSF Interagency Award Number OIG-094 8811
                   Relevant Dates: See Page 10

CONTRACTOR:        Southwest Research Institute (SwRI)
                   6220 Culebra Road
                   San Antonio, Texas 78238-5166

                                                                  Page
CONTENTS:          Subject of Audit                                1
                   Scope of Audit                                  1
                   Results of Audit                                2
                   Contractor Organization and Systems             7
                   DCM Personnel and Report Authorization          10
                   Audit Report Distribution                       11
Audit Report No. 3311-2012Wl7900001


                                   SUBJECT OF AUDIT

       As requested by National Science Foundation Office of Inspector General (NSF-OIG)
Associate Inspector General for Audit on August 5, 201l, we examined records at Southwest
Research Institute relating to a reported $1 million premature drawdown of funds affecting
National Science Foundation (NSF) grants and American Recovery and Reinvestment Act
(ARRA) funding in FY2009-FY2010, to determine the cause of the drawdown and if there were
any notable inadequacies affecting areas related to the reporting of NSF grants and ARRA
funding during the noted time period.


                                     SCOPE OF AUDIT

        We conducted our examination in accordance with generally accepted government
auditing standards (GAGAS), except Defense Contract Audit Agency (DCAA) does not currently
have an external opinion on its quality control system as required by GAGAS. The most recent
external quality control review opinion expired on August 26, 2009. GAGAS require that we
plan and perform the examination to obtain reasonable assurance about whether the data and
records examined are free of material misstatement.

       Our examination included the following:

       • 	 As required by NSF, SwRI reports the status of funds quarterly, through the use of
           Federal Cash Transaction Reports (FCTR.s). Due to the reported $1 million
           premature drawdown of funds, we determined the cause and any cost impact
           attributed to SwRl's reported $1 million drawdown of NSF funds which was
           subsequently reversed in the FCTR dated 6/30/201O;
       • 	 Review of SwRI's accounting and reporting for the six (6) NSF ARRA (American
           Recovery and Reinvestment Act) awards to determine whether SwRI is properly
           accounting and reporting for these six (6) FY2009 and FY2010 awards in accordance
           with Office of Management and Budget (OMB) requirements; and
       • 	 Solely with respect to the accounting and reporting of ARRA funds on NSF awards
           during the FY2009 and FY20 l 0 timeframe, assess the adequacy of SwRI's accounting
           system to properly account for, segregate, and report the use of ARRA funds for NSF
           awards in accordance with OMB requirements; to identify and segregate direct from
           indirect costs on NSF a\vards; and to identify and segregate unallowable costs on NSF
           awards.

       We evaluated the subject of audit using the applicable requirements contained in the:

       • 	 Federal Acquisition Regulation (FAR),
       • 	 Cost Accounting Standards (CAS),
       • 	 Office of Management and Budget (OMB) Circular A-133 Compliance Supplement
           (June 2012),
Audit Report No. 3311-2012W17900001


       • 	 2 CFR Part 215 (OMB Circular A-110) - Uniform Administrative Requirements for
           Grants and Agreements with Institutions of Higher Education, Hospitals and Other
           Non-Profit Organizations,
       • 	 National Science Foundation (NSF) General Grant Conditions and Grant Policy
           Manual,
       • 	 Public Law 111 - 5 - The American Recovery and Reinvestment Act (ARRA) of
           2009,
       • 	 ARRA Terms and Conditions,
       • 	 OMB M-10-08 Updated Guidance on ARRA,
       • 	 Implementing Guidance on Use ofARRA Funds (OMB M-09-21)

        We have not examined SwRI's entire accounting system and related systems or internal
controls on a current basis. Please refer to the Contractor Organization and Systems section
(page 8) for additional information about the systems. The scope of our examination reflects our
assessment of control risk and includes those tests of compliance with applicable laws and
regulations that we believe provide a reasonable basis for our opinion. Our examination does not
provide a legal determination on SwRl's compliance with the noted requirements.


                                    RESULTS OF AUDIT

        In our opini<;m, SwRI's reporting error and subsequent corrective action relating to the
reported $1,000,018 discrepancy in reported NSF grant funds had no substantive and material
effect on the actual cash disbursements and funding, resulting in no material cost impact to the
NSF grant awards during the FY2009 and FY2010 timeframe (including the six (6) ARRA
awards). The reported discrepancy was not an accounting error that affected SwRl's books and
records, but was rather a human input error in the amounts manually reported within the quarterly
FCTR for March 31, 2010. Our review disclosed that SwRl was properly reporting on NSF
grants and ARRA funding during the time period identified in the scope of our audit. Our review
also determined that, for the NSF grants within our scope, SwRI properly segregated direct and
indirect costs and identified and excluded unallowable costs.

       The results of audit are summarized below:

        We determined the cause and any cost impact attributed to Southwest Research Institute's
(SwRI) reported $1 million drawdown of NSF funds, which was subsequently reversed in the
Federal Cash Transaction Report (FCTR) dated 6/30/2010. Our scope included assessing SwRl's
official explanation for why there was a reported funding drawdown of over $1 million dollars
affecting multiple NSF grant awards (including six (6] ARRA-funded contracts) and reviewing
relevant documentation, in order to determine if SwRl's explanation is verifiable and
reconcilable to applicable support documentation.




                                                2

Audit Report No. 3311-2012W17900001


        SwRI explained that when the previous Quarterly Federal Cash Transaction Report
(3/31I I0) was generated, a manual reporting error occurred affecting the generation of the report,
caused by a one-time human error during the input of cost information from SwRI's accounting
system into that report, which caused the Unobligated Balance of Funds amounts for specific
NSF grant awards (i.e. contracts) to be inputted as the Cumulative Cash Disbursement (or
Federal Share of Expenditures) amount for that period. SwRI stated that this error only affected
the reporting of cash disbursement and did not result in an overbilling to the Government. SwRI
stated that the reporting error was not identified and corrected until the 6/30/20 I 0 Quarterly
Federal Cash Transaction Report was in the process of being issued. SwRI provided email
printouts documenting the discovery of the reporting error by the cognizant NSF billing clerk and
SwRI's attempt to take corrective action.

        Based on documented emails, significant reductions in expenses were noted on the
affected awards and prompted SwRI to determine if the cause was a mistake. Once the reporting
error was identified, SwRJ was directed by the cognizant NSF billing clerk that a revision to the
previous report could not be done, but to rather roll over the correction to the 6/30/20 l 0 report by
inputting .the correct total expenses for the then-current period and provide remarks within the
report acknowledging the correction.

        We received copies of the Federal Financial Reports and determined that there were no
significant reversals outside of the 6/30/2010 reporting period. We reviewed the data within the
noted FFRs and compared it to the documented costs and we noted the fo llowing:

    • 	 The correct cash disbursement for the affected NSF awards for the 3/31/2010 reporting
        period was $1 89,911 ;
    • 	 The reported period cash disbursement for the affected NSF awards was $1,801,613;
    • 	 The d ifference between the reported FFR cash disbursement and the Proj ect Cost System
        generated cash disbursement for the affected NSF awards during the 3/31/2010 period
        resulted in a reported overstatement of $1 ,611,702 expenditures;
    • 	 The actual cash disbursement for the affected NSF awards for the 6/30/2010 reporting
        period was $611,685;
    • 	 The reported period cash disbursement for the affected NSF awards was -$1,000,01 8,
        which represents the total corrective action; and
    • 	 The remaining difference between 'the previously reported overstatement and the
        combination of the actual cash disbursement and the noted correctiv~ action to the
        6/30/10 FFR, is $0.


       Based on our reconciliation/verification of SwRJ's explanation for the reported cash
disbursement reversal in the FFR for 6/30/2010, along with support documentation, we
determined that, as the reporting error and correction had no substantive and material effect on



                                                  3

Audit Report No. 3311-2012W17900001


the actual cash disbursements and funding accounted for within SwRJ's -         system, there
was no cost impact to the noted NSF grant awards (including the 6 ARRA awards).

       We documented an understanding of the internal controls over compliance for Cash
Management, Compliance Requirement C, including identifying relevant controls providing
assurance that the compliance objective was achieved as related to the NSF grants and awards.
Our review disclosed that there were no reportable issues between SwRI's documented policies
and procedures covering cash management compliance during the FY2009 and FY20 I 0
timeframe, in relation to Compliance Requirement C, Cash Management within the compliance
supplement of OMB Circular A-133.

       We attempted to ascertain the procedures established with NSF and SwRI to minimize
the time between the transfer of Federal funds and the payout of funds. While we noted
applicable criteria relating to payments and the use of advanced cash draws of funding, our
review disclosed that there were no requirements relating to the timing of fund transfers and
payouts within the individual NSF grant documentation we reviewed.

        We judgmentally selected                      requests, out of a universe of.  applicable
to the NSF grants affected by the $1 million dollar drawdown during FY2009 and FY2010, and
traced to supporting documentation showing that the costs, for which reimbursement was
requested, were incurred prior to the date of the reimbursement request. Based on our testing, we
determined that SwRI followed the required criteria for reimbursement requests, in that we did
not note any invoiced costs submitted to NSF that were not recorded and paid for by SwRI within
30 days ofthe issuance of reimbursement requests.

         We verified that established procedures to minimize the time elapsing between drawdown
 and disbursement were followed and noted whether interest was earned on Federal cash draws
 relating to the NSF grants affected by the reported $1 million drawdown during FY2009 and
 FY20 10. We determined that SwRJ followed established procedures regarding requesting and
 disbursement of funds during the subject fiscal year timeframe. Additionally, we confirmed that
 no advanced cash drawdowns or interest were incurred on the subject NSF grants.

         We reviewed SwRJ's accounting and reporting for the six (6) NSF ARRA (American
 Recovery and Reinvestment Act) awards to determine whether SwRI is properly accounting and
 reporting for these six (6) FY2009 and FY2010 awards in accordance with Office of
 Management and Budget (OMB) requirements.

          We obtained copies of quarterly ARRA reports for judgmentally selected NSF ARRA
  grants and reviewed the selected ARRA reports, in order to observe any errors \Vithin the reports
  relating to funds received and spent, as well as jobs created and/or saved. We determined that
. there were issues affecting the accuracy of the earlier ARRA reports that we selected, due to
  human error caused by a lack of established and complete policies and procedures for completing
  the ARRA reports. Based on our review of the subsequent selected ARRA reports, there were no



                                                 4

Audit Report No. 331l-2012W17900001


error issues; in conjunction, we noted that SwRI established ARRA reporting policies and
procedures designed to prevent/reduce errors and increase accuracy (such as cross-checking for
errors). Taking into account these facts, we believe that, while there were errors affecting the
earlier ARRA reports we selected, these errors were not of a significant materiality and were
subsequently corrected in the later ARRA reports within our selection pool; therefore, we do not
believe there is a reportable control deficiency.

       Solely with respect to the accounting and reporting of ARRA funds on NSF awards, we
assessed the adequacy of S\\1Rl's accounting system to properly account for, segregate and report
the use of ARRA funds for NSF awards within our scope of testing, in accordance with
applicable 01\llB requirements, which include the fo llowing:

   •   The ability to identify and segregate direct from indirect costs on NSF awards; and
   •   The ability to identify and segregate unallowable costs on NSF awards.

       We identified the types of activities which are either specifically allowed or prohibited by
the Jaws, regulations, and the grant agreements pertaining to the NSF program. We used the
noted criteria to determine the presence of allowability issues within our testing of prime grantee
(SwRl) and subrecipient invoiced costs.

       We judgmentally selected • out of .     transactions and verified that the transactions
were for allowable activities and summarized the results. We determined that SwRl properly
excluded unallowable costs on NSF awards within our scope, in that there were no invoiced costs
submitted to NSF for reimbursement that were unallowable per . the applicable NSF grant
requirements and criteria.

       We verified the accuracy of SwRl's                                      indirect costs to
NSF grants during the fiscal year timeframe of our audit scope, through the use of
-           rates. We determined SwRI's application of indirect rates to
to NSF grants to be consistent with the                        indirect rates that were current
during the timeframe of our audit scope. Qur review disclosed that the indirect rates applied to
generate                                    reimbursement requests matched the ­
~ates.

        We reviewed all adjusting journal entries applicable to the noted NSF grants within our
scope, to determine the presence of significant adjusting j ournal entries for
labor applicable to the NSF grants affected by the $1 million dollar drawdown and evaluate their
effect. Within the scope of our review, there were no adjusting entries that would establish the
presence of reportable deficiencies affecting _SwRI's accounting system or related internal
controls, nor were there any adjusting entries establishing the presence of inappropriate and/or
systemic mischarge ofcosts to the noted NSF grants within our scope.




                                                 5

Audit Report No. 3311-2012W17900001


        We determined that SwRI complied with the cost sharing requirements applicable to the
six (6) NSF ARRA grants within our scope, in that SwRI was able to maintain monitoring of cost
sharing by using a process that provided a consistent application of cost share that was recorded
and accumulated throughout the completion of the grants.

       We discussed the results of our audit with SwRI representatives

           in an exit conference on November 7, 2013.




                                                6

Audit Report No. 3311-2012Wl 7900001


                     CONTRACTOR ORGANIZATION AND SYSTEMS

l.     Organization:

        Southwest Research Institute (SwRl) is an internationally active, independent, nonprofit,
research and development organization founded in 1947 to help business, industry, and
government solve scientific/technological problems. It provides engineering and technical
support services primarily centered in San Antonio, Texas. The total revenue for fiscal year
ended September 28, 2012, was -        million. Approximately      Ipercent of its revenues relate
to government contracts and the remaining revenues relate to commercial contracts and
subcontracts. SwRI currently has approximately llll employees.

2.     Business Systems (and related internal controls):

       a. Accounting System

        Pursuant to DFARS 252.242-7006 (final rule effective February 24, 2012), the overall
accounting system criteria encompasses the elements of the control environment, accounting and
billing systems, and IT general systems controls. In addition, elements of the labor,
compensatic;m, and indirect and ODC systeins that DCAA previously reviewed also relate to the
accounting system as a whole.

        We have not examined SwRI's entire accounting system and related systems or internal
controls on a current basis. Further, due to limitations on agency resources, we have not been
funded to perform a full audit of the entire accounting system at SwRI.             ·

       However, under Audit Report No. 33ll-2012Wl1090001 (dated December 13, 2012), we
reported a significant deficiency in the contractor's accounting system pursuant to DPARS
252.242-7006(c)(16), Accounting System, that we considered to be a material weakness.

        SwRI's cost accounting system is not able to adjust indirect billing rates on a retroactive
basis following revisions made to its                   rates or          rates under FAR 42.704 or
42.705 . SwRl's policy is to not adjust its billings                                   established or
-            claimed in its incurred cost proposals until the final closing of the contract. Because
SwRl's billings do not reflect the -            or the -               they would mutually agree to
bill, we reported that this would be in noncompliance with DFARS 252.242-7006(c), which
states in part that "The Contractor's accounting system shall provide for - (16) Billings that can
 be reconciled to the cost accounts for both current and cumulative amounts claimed ..."

       Failure to update billings on all contracts to reflect the -         rates and update the
schedule of                                   osts claimed and billed (Schedule I of its incurred
cost submission) within 60 days, does not comply with FAR 52.216-7(d)(2)(v) (eff 6/30/2011 )
and FAR 52.216-7(e) (eff prior to FY2000) .


                                                  7

Audit Report No. 3311-2012W17900001



       Although DCAA has not reviewed the overall accounting system, the prior
-         ) provided a letter on May l, 2013, stating that SwRJ's accounting system was
"acceptable" and "approved", "on the condition that SwRI will make billing adjustments using
provisional billing rates from FY2012 and forward."

       SwRI's accounting system segregates cost by contract or project under the general cost
categories of labor, overhead, materials and supplies, travel, and other direct costs. The
following is the rate structure established for bidding, billing, and historical cost and describes
how the most significant indirect costs are allocated:




       b. .Billing System

        Pursuant to DFARS 252 .242-7006, the billing system is considered an element of the
overall accounting system. We have not examined SwRl's billing system and related internal
controls on a current basis. Further, due to limitations on agency resources, we have not been
funded to perform a full audit of the entire accounting and billing system at SwRI.

       However, flash RepqrtNo. 3311-2010W11010003 (dated April 20, 2011) stated that the
contractor has inadequate policies and procedures for reviewing subcontractor invoices prior to
payment and recommends corrective action to improve the reliability of its future cost claims. In
our professional judgment, the deficiency noted could adversely affect the organization's ability
to submit billings that are correctly prepared for government programs, projects, and contracts.

       In addition, flash Report No. 331l-2010Wl1010001 (dated February 16, 2010) stated that
SwRI has inadequate policies and procedures for preparing provisional billing and bidding rates
and recommended corrective actions to improve the reliability of its future cost claims.




                                                 8

Audit Report No. 3311-2012Wl 7900001


        Under Audit Report No. 331l -2010Wl7900004 (dated September 6, 2011), we reviewed
SwRl's revised policies and procedures for developing the                          provisional
rate and determined that they continue to be inadequate. More specifically, the contractor's
revised policies and procedures do not address the following topics as mentioned in the review
cited above:

       • 	 the adjustment of billings and timing of adjustments throughout the year and over the
           life of the contract after rates


       • 	 what circumstances     preclude the contractor from -               -             rate
           adjustments.

       In our professional judgment, the deficiency noted could adversely affect the
organization's ability to submit billings that are correctly prepared for government programs,
projects, and contracts.


3.     Cost Accounting Standards:

        SwRI is subject to Cost Accounting Standards. Audit Report No. 33 ll-2008Wl9100001
(dated March 26, 2010) stated that SwRrs CASB Disclosure Statement Revision No. 3 does not
adequately describe SwRI's revised cost accounting practices. Accordingly, we recommended
that SwRI submit a revised disclosure statement. On October l, 2010, SwRI submitted a revised
CAS disclosure statement (Revision No. 4). Currently, this revised submission has not been
reviewed or accepted. In addition, SwRI provided a revised CAS disclosure statement (Revision
No. 5), on June 6, 2011 which provided for a change in accounting practices for
Operations which becomes effective October 1, 2011 . The auditor has completed fieldwork and
testing for Disclosure Statement Revision Nos. 4 and 5, and the final results are currently going
through management review.




                                                9

Audit Report No. 3311-2012W17900001


                                     .DCAA PERSONNEL

                                                                       Telephone No.
Primary contact(s) regarding this audit:
         David Robinson, Auditor                                  (5 12) 916-5090, 

         Thomas Fritzsche, Supervisory Auditor                    (210) 366-0291, 


Other contact(s) regarding this audit report:
         Laura M. Cloyd-Hall, Branch Manager                           (210) 522-2248


                                                                          FAX No.
         San Antonio Branch Office                                     (210) 366:4126


                                                                       E-mail Address
         San Antonio Branch Office                                 dcaa-fao331 l @dcaa .mil

General information on audit matters is available at http://www.dcaa.mil.


                                     RELEVANT DATES

Request for Audit: NSF-OIG Associate Inspector General for Audit - dated August 5, 20 11;
received August 5, 2011

Revised due date extension: November 22, 20 13

AUDIT REPORT AUTHORIZED BY:




                                                       LAURA M. CLOYD-HALL
                                                       Acting Branch Manager
                                                       DCAA San Antonio Branch Office




                                                10 

Audit Report No. 3311-2012\V17900001


                         AUDIT REPORT DISTRIBUTION


                                                      E-mail Address
Associate Inspector General for Audit                dwillems@nsf.gov
Office oflnspector General (OIG)
National Science Foundation (NSF)
ATfN: Mr. David Willems, Audit Manager
4201 Wilson Boulevard
Ari ington, Virginia 22230




                                         11 

                              SAN ANTONIO BRANCH OFFICE 

                                   CENTRAL REGION 

                             DEFENSE CONTRACT AUDIT AGENCY 

                                 DEPARTMENT OF DEFENSE 

                                4201 MEDICAL DRIVE, SUITE 340
                                  SAN ANTONIO, T EXAS 78229




03311 820.5 2012W17900001 	                                                     March 20, 2014

MEMORANDUM FOR OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE
                 FOUNDATION

ATTENTION: Mr. David Willems, Audit Manager (dwillems@nsf.gov)

SUBJECT: 	 Response to additional questions submitted by National Science Foundation Office
           of Inspector General (NSF-OIG) regarding Audit No. 3311-20 12W l 7900001, dated
           November 12, 20 13, at Southwest Research Institute (SwRI)

        As discussed on March 10 and 18, 2014, your office requested additional details
regarding six ARRA reporting errors referred to in the subject audit report. While these
immaterial errors did not warrant explicit discussion in our report conclusions, we are providing
the following additional details per your specific request.

        The following are the specific ARRA reporting errors noted during our review of the
selected ARRA reports:

           1) 	 In the 12/31/2009 ARRA report for project 15 192 (AST-0909166), the
                reported jobs




           2) 	 In the 3/31/2010 ARRA report for project 15 183 (AST-0909137), the
                reported jobs amount
·03311 820.5 2012W17900001                                                 March 20, 2014
 SUBJECT: Response to additional questions submitted by National Science Foundation Office
             of Inspector General (NSF-OIG) regarding Audit No. 3311-2012Wl7900001, dated
             November 12, 2013, at Southwest Research Institute (SwRI)

           3) In the ARRA reports for project 15 183 (AST-0909137) for 3/31/2010,
              6/31/2010, and 9/30/2010, the reported award date for the
              -            sub-award is listed as 11/09/2009. However, the fully
              executed/signed award date is 3/4/2010 in the sub-award documentation.
              SwRI stated that the 11/09/2009 date in the ARRA reports is based on a
              purchase requisition that was issued before the sub-award was fully
              executed/signed. The period of performance for the sub-award is between
               1111/2009 and 8/3112012, which reconciles to why a purchase requisition
              would be issued before the sub-award was fully executed/signed, as work
              was already being performed by the sub-recipient. SwRI stated that once
              the sub-award was fully executed/signed, the related date (3/4/20 l 0)
              should have been what was listed within the 3/31/2010, 6/3 1/2010, and
               9/30/2010 ARRA repo11s. While we consider this issue as a reporting
               error, we do not believe that it had a material effect upon other elements
               listed within the ARRA reports, and did not have a material effect on the
               related ARRA funding.                                            ·

           4) 	 In the ARRA report for project 15183 (AST-0909137) for 3/31/2010, we
                noted that the· reported Funds Invoiced/Received amount was $1 1,311 ,
                while the applicable Project Cost System report information shows that the
                Amount Billed/Paid was $14,345. The resulting difference was $3,034 in
                unreported invoiced/received funds. SwRI stated that the difference
                resulted from an error caused by SwRl not properly updating the ARRA
                report. We noted that there were no other reporting errors affecting Funds
                Invoiced/Received amounts for project 15183 in the 6/3 1120l 0 and
                9/30/20 l 0 ARRA reports.
           5) 	 In the ARRA reports for project 15183 (AST-0909137) for 3/3112010 and
                6/31/2010, we noted that the reported Expenditure Amounts were ­
                and -          respectively. The applicable Project Cost System report
                information shows that the Total Cost and Fee amounts for the 3/31/2010
                and 6/31 /20l0 reporting periods were ~nd -                 The resulting
                difference for the 3/31/2010 reporting period was $9,673 in unreported
                expenditures. The resulting difference for the 6/31/2010 reporting period
                was $7,636 in over-reported expenditures. SwRI stated that the difference
                affecting the Expenditure Amount for the 3/31 /2010 ARRA report resulted
                from an error caused by SwRI not properly updating the ARRA report.
                SwRl stated the difference affecting the Expenditure Amount for the
                6/31120 10 ARRA resulted from human error. We noted that there were no
                reporting errors affecting Expenditure amounts in the 12/31/2009 and
                9/30/2010 ARRA reports for project 15 183.



                                              2

03311820.52012Wl 7900001 	                                                   March 20, 2014
SUBJECT : 	 Response to additional questions submitted by National Science Foundation Office
            of Inspector General (NSF-OIG) regarding Audit No. 3311-2012Wl7900001, dated
            November 12, 2013, at Southwest Research Institute (SwRI)

           6) 	 In the ARRA report for project 15192 (AST-0909166) for 12/31/2009, we
                noted that the reported Expenditure Amount was -            while the
                applicable Total Cost and Fee amount was $5,422. The resulting
                difference was $290 in unreported expenditures. SwRI stated that the
                difference affecting the Expenditure Amount for thel2/31/2009 ARRA
                report resulted from human error.
       SwRl's ARRA reporting procedure was described as a 'living document" originally
develope d during October 2010, in order to assist
                           during the completion a
documentation,                                            was meant to ensure accuracy
and reduce the likelihood of errors.

        For the ARRA reporting timeframe prior to October 2010, SwRI stated that an early set of
procedures were developed,
                                    that would be affected by the ARRA reporting requirements
related to the six noted ARRA/NSF grants. While the pre-October 2010 ARRA reporting
procedures do not include
they do breakdown and identify the relevant areas affected by the ARRA repqrting requirements,
and the actions that need to be taken

       If you have any questions, please contact Thomas Fritzsche, Supervisory Auditor, at
(210) 366-0291 x245 or email tom .fritzsche@dcaa.mil. Furthermore, as an additional point of
contact to ensure your needs are being met, you may contact the PAO Manager, David Tilley, at
(210) 366-0291 x231 or fax (210) 366-4126. Our e-mail address is dcaa-fao331 l @dcaa.mil.




                                                   DAVID TILLEY
                                                   Branch Manager
                                                   DCAA San Antonio Branch Office




                                             3

